WAIVER

Supreme Court, U.S.
FILED

DEC 2 3 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 19-703

Barbara Nina Davis

MTGLQ Investors, L.P.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a r
will be filed by a Bar mem

nse be requested, the response

Signature
Date,

December 23, 2019

(Type or print) Name

B
Brian Alexander Wahl
0 Mr.

Firm

Bradley Arant Boult Cummings LLP

Address

1819 5th Avenue North - One Federal Place

City & State
Phone

❑ Ms. 0 Mrs. 0 Miss

Birmingham, AL

205-521-8593

Zip
Email

35203

bwahl@bradley.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: John J. Anastasio, Esq., Suite 203, 3601 South East Ocean BNcIREterEra 96

DEC 2 7 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Brian A. Wahl

Bradley

bwahl@bradley.com
205.521.8593 direct
205.488.6593 fax

December 23, 2019
VIA FEDERAL EXPRESS
United States Supreme Court
Office of the Clerk
1 First Street, NE
Washington, DC 20543-0001

Re:

Barbara Nina Davis v. MTGLQ Investors, L.P.; Case No. 19-703

To Whom It May Concern:
Enclosed for filing please find an original and one copy of Respondent MTGLQ's Waiver
regarding the petition for writ of certiorari filed in this matter. Please return a file-stamped copy
to my office in the enclosed prepaid envelope. Thank you.
Very truly yours,

a—
Brian A. Wa 1 WOW0
BAW/tlr
Enclosures

DEC 2 7 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

4823-1336-6447.1
Bradley Arant Boult Cummings LLP I One Federal Place 11819 Fifth Avenue North I Birmingham, AL 35203-2119 1 205.521.80001 bradley.com

